No. 21A-_____
________________________________________________________________
________________________________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
_______________
UNITED STATES OF AMERICA,
v.
DESLOUIS EDOUARD, JR.
APPLICANT
_______________
APPLICATION FOR BAIL PENDING TRIAL
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
_______________
JONATHAN J. SOBEL, ESQUIRE
Counsel of Record
1500 Walnut Street, Suite 2000
Philadelphia, PA. 19102
Mate89@aol.com
(215) 735 7535
________________________________________________________________
________________________________________________________________

PARTIES TO THE PROCEEDING
The applicant(defendant-appellant below) is Deslouis Edouard,
Jr.
The respondent (appellee below)is the United States of America.
RELATED PROCEEDINGS
None

2

IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 21A-_____
UNITED STATES OF AMERICA
v.
DESLOUIS EDOUARD, JR.
APPLICANT
_______________
APPLICATION FOR BAIL PENDING TRIAL
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
_______________
Pursuant to the Rules of this Court, Applicant, Deslouis
Edouard, Jr., respectfully applies for Bail Pending Trial:
STATEMENT OF FACTS

Defendant is Deslouis Edouard, Jr.

Defendant is a

citizen and resident of the Commonwealth of
Pennsylvania residing in Bethlehem, Pennsylvania.
According to the government, defendant used false
names to rent apartments and obtain utility services.
Defendant was alleged to have lived in the apartments
and failed to pay the landlord and utility bills.
faced with eviction, defendant left the apartment.
This was alleged to have happened on four (4)
occasions.

Defendant was alleged to have opened

cellphone accounts and bought Apple products with

3

When

stolen identities.

Defendant allegedly purchased a

2016 Audi Q5 for approximately $32,000.00, using
another individual’s identity.

Upon a search of his

premises, the government is alleged to have found
stolen information and other fruits of defendant’s
crime.
According to the government, defendant’s sentencing
guidelines are between 46 and 57 months plus a twentyfour (24) month mandatory minimum.

The loss amount

according to the government is $522,000.00.

Defendant

has no prior criminal record.
PROCEDURAL HISTORY

On or about October 21, 2020, defendant was
indicted by the Grand Jury and was charged with the
following:

two (2) counts of violating 18 U.S.C. §

1341 (mail fraud); two (2) counts of violating 18
U.S.C. § 1343 (wire fraud); one count of violating 18
U.S.C. §

1029(a)(2) (access device fraud); one (1)

count of violating 18 U.S.C. §

1029(a)(4) (possessing

device making equipment); and four (4) counts of

4

violating 18 U.S.C. §

1028(a)(1), (c)(4) and (c)(5)

aggravated identity theft.
On January 17, 2021, defendant was arrested in
Miami, Florida. Defendant was taken before the
Honorable Magistrate Judge Alicia O. Valle of the
United States District Court for the Southern District
of Florida (Fort Lauderdale), 21-mj-06019.

On January

19, 2021, defendant had an initial appearance before
Judge Valle.

On January 22, 2021, defendant appeared

before Judge Valle and waived identity and removal
hearing.

On January 22, 2021, the criminal case was

transferred to the Eastern District of Pennsylvania.
It is believed defendant remained incarcerated in
Florida for the next three (3) months.

Thereafter, he

was taken to Oklahoma and then returned to the Eastern
District of Pennsylvania.
On May 14, 2021, defendant appeared before the
Honorable Marilyn Heffley, U.S.M.J., for an initial
appearance.

Judge Heffley ordered defendant

temporarily detained.

On May 18, 2021, the United

5

States filed a Motion for Pretrial Detention.

On May

21, 2021, defendant filed a response to the Motion for
Pretrial Detention.
On May 21, 2021, defendant appeared before the
Honorable Carol Sandra Moore Wells, U.S.M.J., for
arraignment and pretrial detention.

Judge Wells

ordered defendant detained pending trial.

Judge Wells

did not conduct any real legal analysis in her decision
to detain defendant other than stating “I’m not
comfortable.”

(N.T. May 21, 2021, at 18:16-18.).

On June 1, 2021, the undesigned was retained to
represent defendant.

On June 2, 2021, Defendant moved

to vacate Judge Wells’ Order for Pretrial Detention and
order defendant released on conditions, including O/R
bond.

On June 28, 2021, a hearing was held, via video

communication before the Court with defendant present
via video.

On July 1, 2021, the Honorable Jeffrey

Schmehl, U.S.D.J. denied the Motion to Vacate.
Defendant timely files the within appeal of Judge
Schmehl’s Order.

The District Court found that

6

defendant had knowledge of being indicted and “went
dark”.

Id. at 5.

The Court denied the motion

ostensibly based upon the length of defendant’s
potential exposure and the weight of the evidence
against him noting there were no conditions to assure
his appearance.

Id. at 7.1

On July 9, 2021, Appellant filed a Notice of Appeal
to the United States Court of Appeals for the Third
Circuit.

On July 27, 2021, the Third Circuit denied

the Motion for Bail Pending Trial.
On June 4, 2021, notice was filed of a jury trial
for July 26, 2021.

On June 29, 2021, the Government

filed a Motion to Continue the trial date and to
Exclude Time under the Speedy Trial Act.

On June 30,

2021, the trial court granted the government’s motion
and relisted the trial for September 27, 2021.

1

Both the Magistrate Judge and the District Judge denied the
defendant bail based upon reasons that run headlong into binding
Circuit precedent. See United States v. Himler, supra
(forbidding District Courts from denying bail based upon
potential length of sentence when it is not a “presumption
case.” There is no direct evidence defendant was ever apprised
of the filing of the indictment.
7

PERSONAL BACKGROUND OF DEFENDANT, DESLOUIS EDOUARD, JR.

Axiomatically, defendant is a non-violent
individual who has never had trouble with the law.

He

is an American Citizen with strong ties to the United
States.

Defendant was born in Miami, Florida to a

Haitian father and a mother who was born in Guadalupe.
Unfortunately, defendant’s father passed away in June,
2020.

As will be discussed below, defendant returned

to Florida for his family following his father’s
passing.

Defendant has several brothers and sisters

all of whom reside in the United States.

Defendant

remained in Florida for much of his formative years,
eventually leaving Florida and setting down roots in
the Allentown, Pennsylvania.

Defendant obtained his

CDL license from Tennessee and started operating trucks
out of Pennsylvania.

Defendant has one (1) child,

approximately four (4) years of age.

Defendant

maintains a good relationship with the child’s mother.
Defendant has not expressed nor is there any indication
defendant has a substance abuse problem or drinking
8

problem.

Similarly, defendant is not and has never

been on probation, parole and / or supervised release.
LEGAL STANDARD
When analyzing the Bail Reform Act this Court “must
make an independent determination with respect to the
statutory criteria for detention or release.” Himler,
797 F.2d at 159 (citing United States v. Perry, 788 F.2d
100, 104 (3d. Cir. 1986)). This Court cannot “ignore
the trial court’s supporting statement of reasons for
the action taken”, but may “reach a different outcome .
. . [and] amend or reverse the detention decision.”
Himler, 797 F.2d at 159 (citing Delker, 757 F.2d at
1400).
Pursuant to the Bail Reform Act, the court must
order the pretrial release of a defendant on personal
recognizance or unsecured appearance bond “unless the
judicial officer determines that such release will not
reasonably assure the appearance
required

or

will

endanger

the

of

safety

the
of

person
any

as

other

person or the community.” 18 U.S.C. § 3142(b). Pretrial

9

detention

may

be ordered where, after a hearing upon

motion by the government, a “judicial officer finds that
no

condition

reasonably

or

assure

combination
the

of

appearance

conditions
of

the

will

person

as

required and the safety of any other person and the
community.” 18 U.S.C § 3142(e).
Should

the

Court

impose

conditions

of

release,

they should be “the least restrictive” conditions that
the

Court

“determines

will

reasonably

assure

the

appearance of the person as required and the safety of
any

other

person

3142(c)(1)(B).

In

and

the

community.”

evaluating

whether

18

U.S.C.§

conditions

of

release are adequate to satisfy the mandate of the Bail
Reform Act, the Court shall consider: 1) the nature and
circumstances of the offense charged; 2) the weight of
the evidence against the person; 3) the history and
characteristics of the person; and 4) the nature and
seriousness

of

the

danger

to

any

person

and

the

community that would be posed by the person’s release.
18

U.S.C.§

3142(g).

The

10

government

must

prove

dangerousness to the community by clear and convincing
evidence and risk of flight by preponderance of the
evidence. United States v. Himler, 797 F.2d 156, 160161 (3d Cir 1986); 18 U.S.C.§ 3142(f).
The Bail Reform Act allows a court to detain an
individual not lawfully present in the United States
“so that immigration . . . officials can take custody
of such individuals before [Bail Reform Act] conditions
are set.” United States v. Nunez, 928 F.3d 240, 244 (3d.
Cir. 2019); 18 U.S.C. § 3142(d). The temporary detention
is for a period of 10 days and the Court must determine
that

the defendant “may flee or pose a danger to any

person

or

the

community.”

18

U.S.C. § 3142(d)(2).

“Other than during this temporary detention period,
individuals release arising from other offenses and noncitizens are treated the same as other pretrial criminal
defendants under the [Bail Reform Act].”
F.3d at 244-245.

11

Nunez, 928

LEGAL ARGUMENT
I.

APPELLANT, DESLOUIS EDOUARD, JR IS NOT A RISK OF FLIGHT
AND PRETRIAL DETENTION IS UNNECESSARY

As a threshold matter, Appellant, Deslouis Edouard,
Jr.

is

being

asked

recognizance bond.

to

be

released

on

a

personal

Defendant has proposed conditions

of release that would satisfy the requirements of the
Bail Reform Act. It has never been alleged Appellant is
a

danger

to

the

community

or

others.

The

proposed

conditions of release provide adequate assurance that
he would appear in court as required and addressed any
concerns about risk of flight. He proposes the following
conditions of release, which we respectfully submit
satisfy the requirements of the Bail Reform Act:
1) Defendant shall comply with the requirements of
18 U.S.C. § 3142(c)(1);
2) Anthony Andoll shall act as custodian and
provide reasonable assurance to the court that
defendant will appear as required and as
directed by 18 U.S.C. § 3142(c)(1)(B)(i);
3) Defendant’s passport shall remain in the custody
of the FBI and/or Pretrial Services during this
period of temporary release and throughout the
pendency of this case; and
12

4) Defendant shall sign an O/R bond of $50,000.00;
Our submission is that the proposed conditions of
release are adequate to assure Appellant’s appearance
at

all

future

court

proceedings

and

safety

of

the

community. 18 U.S.C.§ 3142(g).
A.

Nature and Circumstances of the Offense Charged

The court is to consider the nature and
circumstances of the offense charged, including whether
the offense is a crime of violence.

Defendant is

accused of Aggravated Identity Theft, a non-violent
offenses.

Because defendant’s non-violent fraud

related charges involve only $552,000.00, the offense
is not sufficiently serious; therefore this factor
weighs in defendant’s favor.

See United States v.

Reese, 2019 U.S. Dist. LEXIS 120, 127 (E.D.Pa. 2019).
B.

Weight of the Evidence Against Defendant, Deslouis
Edouard, Jr.

The government contends they have a mountain of
evidence against Defendant and defendant has already met
with the government and engaged in a “proffer” regarding

13

the facts and circumstances alleged in the indictment.
However, this factor alone does not necessarily amount
to a rejection of the request for release from pretrial
detention.

The other factors should be taken into

consideration as well.
C.

History and Characteristics of Defendant,
Deslouis Edouard, Jr.

As noted above, defendant is an American citizen
with strong ties to the United States.
native of Miami, Florida.

Defendant is a

His father, who has since

passed away was from Haiti and his mother is from
Guadalupe.

Defendant remained in Florida for much of

his formative years, eventually leaving Florida and
setting down roots in the Lehigh County / Northampton
area.

Defendant has a commercial driver’s license. He

is the father of a four (4) year old child. Again, he
does not have either a drinking or drug problem.
By way of background, defendant’s property was
raided by the F.B.I., in or around January, 2020.
Defendant was not arrested.

Following the raid,

ostensibly, the government having reviewed the fruits

14

of the raid reached out to defendant, through his
attorney at that time, Robert Goldman, Esquire.
Defendant and his attorney made the decision to engage
in a proffer with the United States Attorney’s Office.
The proffer was conducted, in or around May, 2020.
Defendant was represented by Robert Goldman, Esquire at
the proffer.

Following the proffer, a plea agreement

was circulated between the parties.

Defendant did not

execute the plea agreement.
In June, 2020, defendant’s father passed away while
living in Florida.

Defendant was living in Allentown

area at the time of his father’s passing.

On or about

June 22, 2020, Defendant returned to Florida in order
to be with his family and pay his respects to his
father.

Defendant’s mother, who was residing in

Florida was present and defendant made the decision to
stay with her in Florida as his mother was suffering
from various medical conditions and defendant wanted to
be present for her in Florida.

Defendant never

attempted to evade the authorities.

15

Defendant remained

in Florida until the time of his arrest.

Moreover, at

the time of his arrest, defendant was not in possession
of any large sums of money.
In October, 2020, defendant was indicted by the
government on these economic crimes.

Defendant was

unaware of the indictment and did not return to the
Philadelphia area nor did defendant secret himself away
in Florida.

Defendant simply went along living his

life not knowing, if and when, the government would
indict him.

To say defendant was evading capture would

be a serious overstatement of what took place here.
Defendant did not travel outside the country, in fact,
he has not been out of the country since he was a
minor.

Further, the government is in possession of his

passport and he is unable to travel.

There is simply

no risk of flight at present.
The government may maintain defendant failed to
keep in touch with attorney Goldman, however, this is
not the case.

Defendant was in touch with the attorney

regarding the plea agreement and the fact he would not

16

sign the plea agreement as he was not satisfied with
the plea and it was not being adequately explained to
him.

Defendant would have no reason to know when an

indictment would be coming or if an indictment would be
coming.

Defendant should not be held to have the

burden of inquiry in this respect.

Defendant’s

attorney at the time never communicated to him that he
had been indicted or that he was required to return to
the Eastern District.

At the time of his arrest for a

motor vehicle stop, defendant provided the officer with
his identity through a driver’s license.

Finally, upon

being arrested, defendant voluntarily agreed to return
to the Eastern District.

If defendant was truly

attempting to evade being captured, he would have never
voluntarily submitted his actual driver’s license to
the arresting officer.

Implicitly, this would

establish defendant was unaware he had been indicted or
there was a warrant for his arrest.

Moreover,

defendant has never made any admissions about fleeing
prosecution, nor does defendant have the knowledge,

17

ability or resources to assume a different identity or
somehow travel outside the United States.
D.

The Nature and Seriousness of the Danger to Any Person
or the Community

Defendant poses no danger to any person or the
community. There are no allegations of violence nor
has the government proffered any evidence in this or
the related case that any violence or threat of
violence was involved in the alleged conduct at issue.
As the Court noted in Himler, “[w]hile it is true
that the defendant stands accused of unlawful deceit,
there is, of course, no per se presumption of flight
when the crime charged involves the production of
fraudulent identification.”

Id. at 797 F.2d 156, 161.

Likewise, the government’s argument for detention i.e.,
risk of flight is based upon pure speculation.

The

Himler court held “the statute does not authorize the
detention of the defendant based on danger to the
community from the likelihood that he will if released
commit another offense involving false identification.”

18

Id. at 160.

Again, there is no basis for a finding

that defendant poses a serious risk of flight.
II.

VIOLATION OF THE SPEEDY TRIAL ACT UNDER 18 U.S.C. § 3164(c)

18 U.S.C.§3164(c) provides that failure to commence
trial of a detainee through no fault of the accused or
his counsel, shall result in the automatic review by
the court of the conditions of release.
shall

be

held

in

custody

pending

trial

expiration of a ninety (90) day period.

No detainee
after

the

In the present

case, Mr. Edouard was entitled to have trial commencing
“no later than ninety days” following his detention on
January 17, 2021. Defendant initially did not file any
motions (other than the motion to vacate), therefore
the failure to proceed to trial by mid-July, 2021, was
in no way attributable to him.

See U.S. v. Mendoza,

663 F. Supp. 1043 (D.N.J. 1987).
It should be further noted that the statute
unconditionally mandates release from custody in all
cases wherein defendants have not been brought to trial
within ninety (90) days of arrest.

19

18 U.S.C.§ 3164.

See United States v. Tirasso, 532 F.2d 1298 (9th Cir.
1976) holding “the language of § 3164 is
straightforward.

We find no ambiguity in its

interpretation…Under the clear, language of the statute
the reason for delay is irrelevant, so long as it is
not occasioned by the accused or his counsel.”
1299.

Id. at

The legislative history, moreover, make it

clear that release of the defendant from custody and
nothing less, is the sanction for delay beyond the
ninety-day period.

“Failure to commence the trial of a

detained person under this section results in a person
already under detention, released from custody”, S.
Rep. No. 1021, 93d Cong., 2d Sess., reproduced in 4
U.S. Code Cong. and AD. News 7401, 7416 (1974).”

The

Tenth Circuit in United States v. Theron, 782 F.2d
1515, 1516 (10th Cir. 1986), found that four months
incarceration without bail or trial demands release.
This Court should vacate the Order denying Pretrial
Release and order Deslouis Edouard, Jr., be released
within 48 hours of the filing of this opinion.

20

See

Tirasso, Id. at 1301 (ordering the District Court to
release the Appellant within 48 hours of the filing of
this opinion).
III. DUE PROCESS VIOLATION
The District Court made no findings concerning any
aspects of a due process violation of Defendant’s
protections.

This Court has ruled that where excessive

length of pretrial detention, triggers due process
concerns, a district court must, at a minimum require a
“fresh” proceeding at which more is required of the
government than is mandated by § 3142.

See United

States. v. Accetturro, 783 F2d 382, 388 (3rd Cir. 1986),
where the court found in order to avoid transforming
pretrial detention into a punitive vehicle through
excessive prolongation, at some point a pretrial
detainee denied bail must be tried or released citing
United States v. Gonzalez-Claudio, 806 F.2d 334 (2nd
Cir. 1986).
In this case, Defendant has been confined for
almost six (6) months when this appeal will be heard.

21

The trial date has been scheduled for September, 2021,
and it is guesstimated that a trial date could be
further continued.

This would mean that Defendant

would remain incarcerated for over nine (9) months
without a trial.

As previously noted the total

advisory guidelines range is for months’ imprisonment.
A twenty-four (24) month sentence for Identity Theft
Detention that has lasted six (6) months, and without
speculation, is scheduled to last considerably longer,
points strongly to a denial of due process.
The question is who bears responsibility for the
length of the pretrial delay that has already occurred
in the case sub judice.
As in Gonzales-Claudio, supra, the court reasoned
“We need not determine with precision the amount of
pretrial delay attributable to the prosecution, nor
assess the extent to which the Government may have been
at fault in contributing to the delay.

It suffices for

present purposes to conclude that the Government even
it not deserving of blame, bears a responsibility for a

22

portion of the delay significant enough to add
considerable weight to the defendants’ claim that the
duration of detention has exceeded constitutional
limits.”

Id. at 342-343.

See United States. v. Hall, 651 F. Supp. 16
(N.D.NY. 1985) where the court’s decision was also
influenced by the potential length of defendant’s
incarceration.

Preventive detention for many months

without a finding of guilt, raises a serious
constitutional question.

See also United States v.

LoFranco, 620 F. Supp. 1325 (N.D. NY. 1985) wherein the
court determined if the detention order remains in
effect until trial, defendant will have been imprisoned
without trial for at least nine and a half (9½) months,
which would violate the due process of law.
This is not a complex case.

Defendant has never

been deemed a risk of flight by the preponderance of
the evidence.

Defendant has no history of violence or

failure to appears in his background and the alleged
offense is non-violent.

23

Defendant is asking this Court to fix a timetable
beyond which no person can be held in pretrial
detention on the ground of risk of flight.

The

timetable should not be extended for reasons
attributable to any factor other than that detainee’s
own waiver.

Failure to comply would only result in a

defendant’s release pending trial under appropriate
conditions.

This suggestion is hardly radical since it

was in use for 200 years.

A long period of pretrial

detention without a finding of guilt, based solely on
risk of flight, desecrates the notion that a defendant
is innocent until proven guilty.

This Court has the

means to remedy the abridgment of liberty of the
presumption of innocence.

In various circumstances

this Court has used its inherent supervisory powers to
establish rules that will effectuate a defendant’s
constitutional rights.

See e.g., Gov’t. of Virgin

Islands v. Smith, 615 F.2d 964 (3rd Cir. 1980) where in
finding a court’s inherent power to protect defendant’s
compulsory process rights by conferring immunity on an

24

essential witness.
882 (3rd Cir. 1978).

United Sates v. Moskow, 588 F.2d
Supervisory powers available to

review conditional plea, United States v. Starks, 515
F.2d 112 (3rd Cir. 1975).

Supervisory power used to

recommend that District Court conduct a voir dire of
jurors whenever possibility of juror prejudice arises.
See generally Schwartz, The Exercise of Supervisory
Power by the Third Circuit Court of Appeals, 27
Vill.L.Rev. 506 (1982).

As the Supreme Court has

stated, “Judicial supervision of the administration of
Criminal Justice in the federal courts implies the duty
of establishing and maintaining civilized standards of
procedure and evidence.”

Such standards are not met

without affirmative action.

If this Court does not

establish rules that will vindicate a detainee’s loss
of his or her liberty interests during pretrial
incarceration which will be irreparable if she/he is
subsequently found innocent, then for whom?

Defendant

suggests to this Court to follow suit with the other
Courts of Appeals who have set deadlines.

25

See Theron,

782 F.2d 1515 (10th Cir. 1986).

(Four months additional

incarceration before trial is too long.)

U.S. v.

Gonzales-Claudio, 806 F.2d 340 (2nd Cir. 1986).
The District Court made no findings regarding this
constitutional question, but Appellant seeks that the
Court decide and resolve the question without remanding
to the District Court for such findings.
needs to do so for two reasons.

This Court

First the significant

length of time that pretrial detention has already
lasted and is currently scheduled to last makes it
appropriate to avoid further delays in the resolution
of the Appellant’s constitutional claims, since the
record permits the Court to do so.

Second there are

sufficient undisputed circumstances concerning the
Government’s responsibility for a period of the
pretrial delay to permit adequate consideration of this
facet of the constitutional issue without additional
fact finding.

See Gonzales-Claudio, supra at 341.

Relief in this type of case must be speedy if it is to
be effective.

Stack v. Boyle, 342 U.S. 1 (1951).

26

Appellant also asks that the Court find that all of
the delay from January 17, 2021, through present, is
attributable to the Government.

See United States v.

Bert, 801 F.3d 125 (2nd Cir. 2016), institutional delays
are attributable to the Government.

United States v.

Roberts, 515 F.2d 642 (2nd Cir. 1975), United States v.
West, 164 U.S. App. D.C. 184, 504 F.2d, 253 (D.C. Cir.
1974).

Although the country has suffered with and

impacted by a pandemic, that does not absolve the
Government of their duty under the 6th Amendment to
bring defendant to trial in a speedy and timely manner,
notable seventy (70) days from Indictment.

The Courts

were open in July 2020, and a trial court have
occurred, but the Government chose instead to sit back
and stand silent and idle.

Thus the period mentioned

above should be attributable to the Government.

See

Barker v. Wingo, 407 U.S. 514 (1972) holding that delay
by the courts are attributable to the Government, but
weighed less heavily than intentional delays.

27

Traditionally, Federal law has provided that a
person arrested for a non-capital offense shall be
admitted to bail.

Stack v. Boyle, supra.

instances should release be denied.
States, 89 S. Ct. 36 (1968).

Only in rare

Sellers v. United

Doubts regarding the

propriety of release should be resolved in favor of the
defendant.
(1955).

Herzog v. United States, 75 S. Ct. 349
United States v. McGill, 604 F.2d 1252 (9th

Cir. 1979) cert denied 444 U.S. 1035 (1980).

See also

United States v. Motamedi, 767 F.2d 1403 (9th Cir. 1985)
(granting bail and reversing lower court).
Defendant requests that the Court find a due
process violation and order him released.

Defendant

further asks the Court to announce a rule that no
detainee shall remain detained after 4 months of
pretrial incarceration, as long as the delay was not
caused or requested by a defendant.
Defendant seeks and asks that the ruling that
defendant is not a risk of flight within the meaning of
§ 3142 should be entered. The Court should also find

28

that Defendant’s Speedy Trial Rights under § 3164 have
been violated.

The Court should further conclude that

a due process violation has occurred and fashion a
remedy or rule for this Circuit wherein no defendant
can be held in pretrial detention longer than 6 months
through no fault of his or her own.
CONCLUSION
Therefore, for all of the foregoing reasons, it is
respectfully requested this Honorable Court grant Applicant,
Delouis Edouard, Jr.’s Application for Bail Pending Trial.

Respectfully submitted.
AUGUST, 2021
JONATHAN J. SOBEL, ESQUIRE

29

